MANDATtf
A true cop

ttested & Certified:

'A

Maine supreme iudicial court Clerk of the Law Court

Reporter of Decisions
Decision No. Mem 20-96
Docket No. Aro-20-97

PENELOPE MCHATTEN et al.
C‘Xf\

V.

PAUL F. BALLERSTEIN et al.
■

\

Submitted on Briefs October 21, 2020
Decided November 3,2020
Panel: MEAD, GORMAN, JABAR, HUMPHREY, HORTON, and CONNORS, JJ.
MEMORANDUM OF DECISION
Paul F. Ballerstein and Goldie E. Ballerstein appeal from a declaratory
judgment entered in the Superior Court (Aroostook County, Hunter; A.R.J.')
establishing the location of a common boundary in favor of Penelope McHatten,
Susan P. Hafford, and Kenneth B. Hafford Jr.1
Contrary to the Ballersteins' contentions, the. court’s factual findings and
its conclusion that an ambiguity existed in the deeds were not erroneous.
See Wells v. Powers, 2005 ME 62, Tffl 2-3, 873 A.2d 361; Milligan v. Milligan,
624 A.2d 474,477-78 (Me. 1993). Accordingly, the court’s determination of the
location of the common boundary on the face of the earth, based on its
acceptance of the expert witness's testimony, was appropriate.2 See Grondin v.
Hanscom, 2014 ME 148, Iflf 8-10,106 A.3d 1150.
1 On October 8,2020, a suggestion of death was filed pursuant to M.R Civ. P. 25(a] indicating that
Kenneth B. Hafford Jr. died during the pendency of this appeal.
2 Because the trial court declined to reach McHatten's and the Haffords' claims of adverse
possession and title by acquiescence, we do not address the Ballersteins' remaining arguments.

‘v' j -

2
V*

Although our opinion establishes with finality the location of the parties'
common boundary, it is now the parties' prerogative to define the bounds of
their neighborly relations. Thus, we conclude with these words of
"encouragement’’ from the trial court: "[T]he parties may benefit from
reflecting on whether the value of a few feet, perhaps only a few inches, of
disputed property that is of little economic value is really greater than the
personal cost that each [has paid in pursuit of this litigation]. The opportunity
that each party has ... to reach a final result they could define for themselves
remains.”

1

The entry is:
Judgment affirmed.

Paul F. Ballerstein and Goldie E. Ballerstein, appellants pro se
Luke M. Rossignol, Esq., Bemis & Rossignol, LLC, Presque Isle, for appellees
Penelope McHatten, Susan P. Hafford, arid Kenneth B. Hafford Jr.
Aroostook County Superior Court (Caribou) docket number RE-2018-53
For Clerk Reference Only

A "5

STATE OF MAINE
AROOSTOOK, ss

PENELOPE MCHATTEN
Plaintiff
And
KENNETH B. HAFFORD and
SUSAN P.HAFFORD
Plaintiffs
Vs

SUPERIOR COURT
DOCKET NO. CARSC-RE-2018-53

)
)
)
)
)
)
)
)

)
)

DECISION RE: DECLARATORY JUDGMENTS
AND QUESTIONS OF LIABILITY

)
)
)
)
)

PAUL F. BALLERSTEIN and
)
GOLDIE E. BALLERSTEIN
)
Defendants )

This matter came on for hearing before the undersigned Active Retired Justice of the
Superior Court sitting in the Presque Isle District Court on October 28 and 29,2019. At that time
all three Plaintiffs appeared with counsel. Both of the Defendants also appeared and continued
to represent themselves as they had done throughout the course of the proceedings. The court has
now had an opportunity, to consider the evidence presented1 as well as the written post-hearing
arguments submitted by each party and issues the following decision .

i At the outset of the proceedings, the parties consented to the court taking judicial notice of the entire contents of
court and the BaUersteins agreed to the Plaintiffs’ proposal that the trial be bifurcated. Accordingly dining the first
phase of the trial, the court received evidence only with respect to the questions of the locations of the two
boundaries in dispute and with respect to questions of legal liability on the various civil claims presented by the
parties. Any questions of damages were deferred to a subsequent proceeding if required.

TO

1

BACKGROUND
The parties own adjoining residential properties located on a curved portion of Dupont
Drive in Presque Isle, Maine. Die Plaintiff McHatten’ s (McHatten) property and the Plaintiff
Haffords’ (Hafford) properties are located on either side of the Defendant Ballersteins’
(Ballerstein) property which lies between the respective properties of McHatten and Hafford.
. McHatten acquired her property on or about August 24,200G3. Her property lies
generally to the west of the BaUefstein property. McHatten’s easterly boundary therefore abuts
Ballersteins’ westerly boundary. The location of this, boundary is disputed. The Haffords
acquired their property on or about June 18, 1974.4 Their property lies generally to the south of
the Ballerstein’s property. The Haffords’ northerly boundary therefore abuts the Ballersteins’
southerly boundary.^ The location of tins boundary is also disputed. The Ballersteins acquired
their property on or about July 24,2017.6
The core issues in this litigation pertain to the location of McHatten’s easterly boundary
and the location of the Haffords’ northerly boundary. The locations of these two boundaries are
the central foci of the Plaintiffs’ complaint seeking a declaratory judgment.
McHatten and the Haffords had lived harmoniously alongside their common neighbors
for many years, completely unaware of the long dormant technical conflicts that lay within the
respective deeds of the parties. Shortly after the Ballersteins acquired their property, personal
relationships began to chafe. When Mr. Ballerstein cut down the chain link fence without

3 See Plaintiffs’ Exh.l
4 See Plaintiffs’ Exh. 2
s Because the properties lie generally at a turn in Dupont Drive, the relevant general compass directions referred to
herein are potentially a little confusing.
6 See Plaintiffs’ Exh. 3

(so) 3

if

warning to McHatten and began to break up the concrete footer, it became apparent that the
parties disputed their common boundary lines and the seeds of this litigation were sown.
As per paragraph 2 of the Ballerstein answer to die complaint, in August of 2017, just a
few weeks after acquiring title to their property and in order to resolve their own questions
regarding the location of their boundaries the Ballersteins hired a surveyor. 7
. McHatten and the Haffords commenced this litigation on or about September 17,2018
by serving a complaint upon the Defendants. The Defendants filed an answer and counterclaim
on or about October 3,2018, The Plaintiffs replied to the counterclaim on or about October 19,
2018. The court issued its standard scheduling Order on November 9,2018. Among other
things8, that Order required that expert witnesses be designated by specific dates. The Plaintiffs
have been represented by counsel throughout the course of proceedings. The Defendants have
represented themselves throughout the course of proceedings.

%

The court has made its relevant factual findings regarding the parties’ various actions and
interactions and has articulated its conclusions and judgments herein.9
THE COMPLAINT AND COUNTERCLAIMS

7 Although the Ballersteins hired Mr. William Garish, a Maine licensed professional surveyor and a Maine licensed
professional engineer, to determine the boundaries of their property in August of 2017, they tailed to designate him
as an expert witness as required by this court’s pretrial order dated November 9,2018. In response to the Plaintiffs’
Motion in Limine, the court issued its Order dated October 18,2019 barring the Defendants from presenting any
expert witness, including Mr. Gerrish Consequently, the court has not considered the survey that he prepared or any
opinions or conclusions that he might have drawn. That same Order ruled that the Defendants had failed to raise any
defenses pursuant to M.R.Civ.P. 12(b) and M.R.Civ. P. 8(c) including but not limited to “accord and satisfaction”.
The court notes that on at least two occasions (December 27,2018 and August 7,2019) when it met with the parties,
it cautioned the Defendants, who are educated professional people but who have no formal legal training as far as
this court is aware, that court proceedings can be quite complex and that they might want to consider employing
counsel because Maine has but one set of court rules, irrespective of whether a party is represented or not This is a
long-standing principle most recently articulated in Fox v. Fox. 2019 ME 163 (Decided December 10,2019)
8 The Order also sets forth deadlines for the completion of discovery. From the court’s review of the file and from its
general observation of the course of this litigation, it is apparent that neither party undertook any pretrial discovery
at all.
9 The court has not attempted to address every factual dispute that the parties have raised during the course of this
litigation but rather has addressed only specific factual determinations and conclusions that are relevant to specific
claims.

(Btf) 3

The complaint in this case presents the joint claims of McHatten and the Haffords against
the Ballersteins or the Bailerstein property interests. McHatten and the Haffords occupy different
properties’however and therefore the boundaries in dispute are different. Similarly, the individual
actions of each Plaintiff vis a vis the Ballersteins are not the same, nor were the Ballersteins
actions vis a vis each Plaintiff the same. Accordingly, the court will endeavor to address the
specific claims of each individual plaintiff separately and to address each of the specific
counterclaims of the Ballersteins separately.
The Plaintiffs’ complaint sets forth the following claims:
Count 1: Each plaintiff seeks a declaratory judgment regarding the common boundary
shared with the Ballersteins.
Count 2: Each plaintiff contends they have established title to disputed land according to
the principles of the doctrine of adverse possession.
Count 3: Each plaintiff contends they have established title to disputed land according to
principles of the doctrine of title by acquiescence.
Count 4: Each plaintiff claimed damages for common law trespass.
Count 5: Each plaintiff has claimed damages pursuant to statutory trespass as provided
for within 14 M.R.S. § 7551-B.
Count 6: Each plaintiff has claimed damages pursuant to statutory trespass as provided
for within 14 M.R.S. § 7552.
Count 7: Each plaintiff has claimed damages for conversion.
Count 8. Each plaintiff has claimed damages for the intentional infliction of mental
distress.
Count 9: Each plaintiff has claimed damages for the negligent infliction of mental
distress.
The Ballersteins have filed a two-count counterclaim jointly claiming against each
plaintiff the following:

(Ul) 4

Count 1: The Ballersteins claim that each plaintiff has “defamed the character” of Paul
Ballerstein and that he is entitled to damages and punitive damages.
Count 2: The Ballersteins claim that each plaintiff has intentionally inflicted emotional
distress upon each of the Ballersteins.
The Plaintiffs have also filed a motion for Injunctive Relief that remains pending.10
I. THE MCHATTEN CLAIMS.
Count 1: Declaratory judgment
At the outset, the court notes that in an action seeking a declaratory judgment the
proponent of an affirmative conclusion has the burden of proving that conclusion by a
preponderance of the evidence. Hodedonv; Campbell, 411 A.2d 667,670 ( Me. 1980) It is well
established that proving something by a preponderance of the evidence means proving that the
proposition is more likely true than not true. (See generally, Alexander, Maine Jury Instruction
Manual, §7-11(2017)) Expressed slightly differently, proving something by a preponderance of
the evidence means proving it by the greater weight of the evidence. Expressed as a
mathematical proposition, proving something by a preponderance of the evidence means proving
it to a mathematical percentage of at least fifty one percent (51%). Therefore, in cases involving
a boundary dispute, the proponent of the location of a boundary has the burden of proving that
their claimed boundary location is, more likely than not, the boundary.
Additionally, it should be understood that when a court makes factual determinations, it
may do so on the basis of direct evidence, that is, evidence that a witness may present that is
based on direct personal knowledge acquired through the utilization of their own faculties. If one

10 The court met with the parties on December 27,2018 for a Pre-Trial Management conference and among other
things secured the parties consent to maintain the “status quo” regarding their respective boundaries pending
completion of the litigation. Accordingly, the court deferred addressing the request for a preliminary injunction until
a determination of the merits of the underlying action could be achieved.

(^B(l-N) 5

sees, hears, tastes, touches, or smells something and then relates those perceptions through their
testimony, courts regard this as direct evidence.
On the other hand, courts may also make factual determinations on the basis of
circumstantial evidence. When a court relies upon circumstantial evidence, it is essentially
examining evidence of a particular circumstance and then applying its common sense and life
experience to draw particular factual conclusions from that circumstance.
Accordingly, it should be understood that a court may determine facts upon the basis of
direct evidence and- also upon the basis of inferences of fact drawn from an examination of
relevant circumstances. The law does not regard one kind of evidence as being of greater or
lesser weight than the other form of evidence. (See generally, Alexander, Maine Jury Instruction
Manual §6-9 (2017))
At the outset, the court would note that the McHatten deed, the Hafford deed and the %
Bailerstein deed all lack some degree of “mathematical” precision in the calls that define the
property being conveyed. That is, at least part of the description of each parcel includes at least
one call for a “more or less” distance. Potentially, this could result in a determination that the
distance under consideration could be somewhat longer or somewhat shorter than the numerical
value of the distances as expressed in such a deed.
As a result, each deed reflects no more than an approximate description of its boundaries.
In the McHatten deed, this approximation is contained within the description'of the third piece
making up the McHatten parcel. This piece lies towards the north part of the McHatten lot and is
not directly implicated in locating the McHatten easterly boundary. Nonetheless it results in an
overall approximate description of the McHatten parcel.

(BCD •

Similarly, three of the four calls in the Hafford deed are also “more or less” distances;
once again resulting in an approximate location of the parcel on the face of the earth.
Similarly, three of the four calls in the Ballerstein deed are “more or less” distances and also
produce an approximate location of this parcel on the face of the earth. When these descriptions
are each laid out, overlapping boundaries emerge.
. It is well established in Maine law that determining what the boundaries of a parcel of
land are is a question of law. Where the boundaries are located on the face of the earth is a
question of fact. Hodgdon p. 672.
The Plaintiffs called Timothy Roix in support of their contention regarding the location
of the common boundary between the McHatten and Ballerstein properties. Mr. Roix is both .a
Licensed Professional Land Surveyor and a Licensed Professional Engineer (Civil). In addition
to his formal education and training, he has over thirty-five (35) years of experience in the
surveying and civil engineering fields. Although this court has had no prior contact with Mr.
Roix, after listening to his description of his training, education and experience the court would
conclude that he is a well-qualified expert witness and competent to address the issues regarding
the locations of the disputed boundaries in this case. The court would also find that Mr. Roix was
an objective and unbiased witness and accepts his testimony in its entirety.11
Mr. Roix was the only expert witness called to testify.12 He described how it was that he
became involved in this case, the scope of his engagement and the work that he did. Mr.'Roix

11 Although, the Defendants sought to portray Mr. Roix as biased in favor of Ms. McHatten, the court rejects this
suggestion. While it is true that Mr. Roix has had prior professional contact with Ms. McHatten when she was
employed in the banking industry, it would be this court's observation based on over forty year of experience that
the group of “real estate transactional professionals" in Aroostook County to include lawyers, bankers and land
surveyors is a very small one and consequently, just about every professional has worked with just about every
other professional at one time or another and on more than one occasion. It should not be surprising that many are
on a “first name basis.” This familiarity does not equal bias.
12 Although the Defendants had engaged a surveyor to opine regarding the location of boundaries, they were
foreclosed from calling that person as an expert witness because they failed to comply with the court’s scheduling

(Bffi ’

extensively researched all of the relevant deeds, including the source deeds, involved in this
dispute. He went out into the field on two occasions and located multiple relevant monuments.
He reviewed subdivision plans and surveys that other professionals had prepared over the years. .
He analyzed his findings which reflected multiple inconsistencies and which produced
conflicting and overlapping boundaries when plotted on paper. His objective was to reconcile the
conflicting boundaries with the particular deed descriptions, the evidence he found in the field
and other relevant information to determine the most likely intent of the grantors of the
conveyances involved.
Mr. Roix opined that in order to determine the intent of the various parties, and to locate
the boundaries in dispute it was important to look at the “overall picture” not only as portrayed
by the words in the deeds, but also by the evidence that he found in the field. He testified that
when a surveyor reads a description of “more or less” in a deed, it is most probably an indication
that the parcel was not professionally surveyed. This statement rings true for the court.
Consequently, the descriptions in the three deeds involved in this case are, at least in part, only
approximations of the locations of the property they purport to describe.
The Defendants point out that their deed is a “senior deed”. This is not disputed and Mr.
Roix acknowledged that he was familiar with the concept of “senior rights” vs. “junior rights.”
He cautioned however that while “senior rights” are ah important factor to be considered, they do
not necessarily control because they do not indicate the size, shape or location of the parcel being
examined. Mr. Roix opined that the size shape and location of a parcel can only be determined
by an examination of all of the conveyances that may be implicated as well as the results of the
field work. He indicated that the history of land conveyancing within the area can also provide

order obligating them to identify any expert witness they intended to call at trial and obligating them to supply the
required M.R.Civ.P 26 (b)(4)(A)(i) information during tire discovery period.

feCi'i

8

important clues as can an examination of other available survey plans of land within the same
area, irrespective of whether they are referenced in the subject deeds.
Of particular importance to the Ballersteins are the second and third calls of their deed.
The second call, “Thence westerly at right angles to said east line one hundred twenty-five (125)
feet;” would extend their property towards the disputed boundary line with McHatten. The third
call, “Thence northerly, parallel to said east line of said lot, two hundred thirteen (213) feet, more •
or less, to the southerly line of said parcel conveyed by said Fernand to said Dingwall;” would
produce a common boundary with McHatten that would result in the chain link fence and
concrete footer discussed herein falling within their property. This is certainly one possible
solution. However, it is not the solution that Mr. Roix found to be the most reliable solution and
the best supported solution in looking at the entirety of the circumstances.
The Defendants point to the words “right angles” and “parallel” in support of their
contention regarding the location of their boundary. As the court has considered this matter, it
has occurred to it that there are few absolutes in the law, or in life, and exceptions abound.
Sometimes words can have multiple meanings. The court agrees with Mr. Roix that the
descriptions in deeds that include the Words “more or less” are often prepared by lawyers or
others without benefit of an actual survey. Consequently, those deed descriptions prepared
without benefit of an actual survey may not always be as precisely accurate as one would hope,
notwithstanding the precision or exactness of the language used. The Defendants cite Snvder v.
Haaeen. 679 A.2d 510,513 (Me. 1996) in support of their argument that “a right angle means a
ninety-degree angle.” The Snyder case cites Hodgdon v. Campbell. 411 A.2d 667, 672 (Me.
1980) for its support of this proposition. However, the court notes that Hodgdon left
undisturbed, a referee’s conclusion that a call of “thence northerly parallel with said wall to a

/

(B(i)

9

bolt in a rock on the southerly side of said road” did not actually mean parallel in a geometric
sense but only parallel as “with like direction or tendency.” In support of its Hodgdon
determination, the Law Court cited Universal Home Builders. Inc, v Farmer 375 S.W. 2d 737,
743‘(Tex. Civ. App. 1964) wherein the following language appears,
“From these facts and circumstances, it appears that by use of the language and
parallel with the S line of said J.F. Nelson 5-acre tract” the parties did not intend a course
that was geometrically and mathematically equidistance at every point with e smi me
of the Nelson tract, but rather intended the language to convey a meaning o
e
direction or tendency” or “running side by side.” The word “parallel has een so
defined. The language simply denoted lines which were not straight, as stated in
[citation for a California case omitted].
By definition, parallel lines are undoubtedly straight lines; but in common speech
about boundaries or in a geographical sense, the words, as we all know, are oen use o
represent lines which are not straight, but are the photographs of each other. The term is
used for want of a better, and not because it in all respects fits the use .to which it is
applied. It is so used to avoid circumlocution, and while such use is not technically exact,
it is not obscure, and there is no difficulty in understanding what is meant Nothing is
more common than to speak of boundaries which are not straight as parallel. (Internal
citations omitted.)
The court notes that the second call in the Ballerstein deed is the only call for a right
angle (and a distance of 125”13). In this court’s view, it is not this call for a “right angle” that is
problematic. What is problematic is the third call that speaks of a “parallel” line. The third call
directs,

Thence northerly, parallel to said east line of said lot, two hundred thirteen (213) feet,

more or less, to the southerly line of said pared conveyed by said Fernand to said Dingwall.”
The same Hodgdon ease that supports the Defendants’ contentions regarding the meaning of
“right angles” also supp

orts a conclusion that “parallel” might not be a geometric term but only a

“tendency.” This is essentially Mr. Roix’s conclusion. It is also a finding of the court.

>3 Although the words “more or less” are not included within the call for a "distance of 125”, Mr. Roix feels that this
may also have been an approximate distance. This possibility is supported by Plaintiffe’ Exh. 12 wherein Mr.
Holmes reported that distance to be 125 +/-

(E>CO 10

Among the evidence that Mr. Roix considered in reaching his conclusion was a survey
done by J.F. Hoyt in January of 1970. (See Plaintiffs Exh. 14). The survey was done for Thomas
Lavin Jr., whose deed the court believes to be in the Ballerstein chain of title. That survey
reflects that there were iron pins at all four corners of the lot. For reasons that remain unknown,
Mr. Roix’s.field efforts produced only one iron pin that is shown on Plaintiffs’ Exh. 10A as the
“Point of Beginning For Dingwall.” The Ballerstein description that begins at this same point
makes no reference to any “Existing iron pin”. Mr. Hoyt’s first call according to his survey is
for a compass bearing of“S22 degrees-15 minutes West for a distance of 179.9 feet.14” The next
call is for “One hundred and twenty-five feet (125) to an iron pin”; this is followed by the third
call of “North 25 degrees-30 minutes East for a distance of two hundred and eight 208 feet to an
iron pin”. The first call and the third call are not geometrically parallel; they are off by more than
three (3) degrees. Query how they became “parallel” in the Ballerstein deed, if not perhaps in
accord with the notion of “tendency” to be parallel?
Mr. Roix also considered the 1976 Richard Holmes’ survey (Plaintiff’s Exh. 13) of the
lots at the north end of Dupont Street The survey includes all three of the lots in dispute in this
litigation. The Ballerstein lot is referenced as the [Swett to Lavin] conveyance in 1969. A close
inspection of that survey reflects conflicts between the distances called for in the deed with three
out of the four calls shown in the survey. The court is aware that Mr. Holmes had prepared an
earlier survey in 1959 (See Plaintiffs Exh. 12) that shows part of the Wiggin to Tompkins, Jr. lot
(now the Ballerstein lot) and that the first distance shown appears to be “18T +/-(more or less)”;

14 Mr. Roix pointed out that as reflected in Plaintiffs’ Exh. 13, surveyor Richard Holmes determined the length of
the easterly bound of the Ballerstein lot to be 179.5’ when the deed called for 186’ more or less. He also
acknowledged that the same distance appears in a 1959 survey by Mr. Holmes to be 181’ more or less. He was
unable to account for the conflict but pointed out that neither measurement was 186’.

Ul) U

the second distance is not at a right angle as it now is in the Ballerstein deed it is just a little
less15 and the second distance is not for 125’ it is for 125’ +/-(more or less).
Thus, Mr. Roix essentially concludes that the McHatten and Ballerstein boundary may
not be the product of an exact ninety-degree angle or of an exactly parallel line in a geometric
sense. In further support of his ultimate opinion that the boundary lies just a few feet to the east
of such a line was the field work that he performed. Mr. Roix was able to locate a number of
monuments that he felt served to define Lot 11 of the Aubrey Smith Addition, including one that
he found within 3” of what would be the northeast comer of the McHatten lot.16 It is. clear from
Mr. Roix that the Aubrey Smith Addition was created by a surveyor. Mr. Roix was able to locate
many .monuments that enabled him to determine the location of Lot 11 within that subdivision
with a high level of confidence. This level of confidence, predicated upon monuments found in
the field, contrasts with the “approximate” location of the Ballerstein parcel, defined in largest.
part by “more or less” calls. In Mr. Roix’s opinion, substantial physical evidence supported his
opinion regarding the location of the boundaries of Lot 11 as well as the forty-nine-point five
(49.5) foot wide additional parcel and the eighteen (18) foot wide parcel to the north. Through
his research and field work Mr. Roix found what the court understands to be the pin that marked
the northerly terminus of the McHatten easterly bound. The court finds this persuasive and it
accepts Mr. Roix’s rationale and his conclusion17.
13 The angle shown in the northeast comer is “90 degrees 47 minutes”. This would result in the southeast comer •
creating an angle of “89 degrees 13 minutes.” The court also acknowledges that there are conflicts between Mr.
Holmes’ 1959 survey (P’s Exh. 12) and his 1976 survey (P’s Exh. 13). There is insufficient record evidence to
enable the court to reconcile the two surveys or otherwise explain the conflicts and accordingly it is unable to do
so.The court notes however that the “preponderance of the evidence” standard is considerably more tolerant of
unresolved conflicts than is the criminal standard of “proof beyond a reasonable doubt.”
16 The McHatten lot is comprised of three distinct lots. The first is Lot 11 of the Aubrey Smith Addition; the second
is a 49.5 foot wide parcel that abuts Lot 11; the third is an 18 foot wide parcel that extends across the top of the first
two lots in a general east to west (west to east) direction. Mr. Roix found a monument at what he determined to be
the northeast comer of the 18 foot strip (Evidence #126 on Plaintiff’s physical evidence list.)
17 Remembering that the governing standard is one of a preponderance ofthe evidence, the court acknowledges that
there is plenty of room for disagreement and that different persons might logically come to different conclusions

(B(l)

12

Recognizing that the applicable standard of proof is not one of “beyond a reasonable
doubt”, but rather one of a “preponderance of the evidence” this court finds that more probably
than not the boundary between the McHatten lot and the Ballerstein lot is as Mr. Roix has opined
and highlighted in yellow on Plaintiff’s Exh. 10A. This conclusion results in the chain link fence
and concrete footer discussed herein lying within the McHatten lot.
Count 2: Each plaintiff contends they have established title to disputed land
according to the principles of adverse possession.
Count 3: Each plaintiff contends they have established title to disputed land according to
principles of the doctrine of title by acquiescence.
Having determined the location of the disputed McHatten boundary by its declaratory
judgment decision, the court deems it unnecessary to address the claims set forth in Counts 2 and
3.
Count 4: Each plaintiff claimed damages for common law trespass.
Because each plaintiff abandoned any claim for common law trespass at trial, the court
does not address these claims any further.
Count 5: Each plaintiff has claimed damages pursuant to statutory trespass as provided
for within 14 M.R.S. § 7551-B18.

based on the same evidence (See State v. Merrow, 161 Me i 11 (1965)) and that in some instances, such evidence
might actually support a contrary conclusion. (See Milligan v. Milligan, 624 A.2d 474,478 (Me. 1993)). In this
instance however, the court has chosen to accept the unrebutted opinion of the only expert witness who presented
evidence in the case.
18 § 7551-B. Trespass damages
1. Prohibition. A person who intentionally enters the land of another without permission and causes damage to
property is liable to the owner in a civil action if the person:
A. Damages or throws dawn anyfence, bar or gate; leaves a gate open; breaks glass; damages any road,
drainage ditch, culvert, bridge, sign or paint marking; or does other damage to any structure on property not
that person’s own; or
B. Throws, drops, deposits, discards, dumps or otherwise disposes of litter, as defined
in Title 17, section 2263, subsection 2, in any manner or amount, on property not that person’s own.

£(l^)

13

In order to prevail on this statutory claim for trespass, McHatten must prove by a
preponderance of the evidence, that:
1. She owned the land that was subjected to trespass;
2. That Mr. Ballerstein intentionally entered McHatten’s land and damaged her property by
damaging and/or taking down a fence;
3. That he did not have McHatten’s permission for those actions.
The court has now determined that the chain link fence and concrete footer that lay
between the Ballerstein and McHatten property was located on property that McHatten owned.

2. Liability. If the damage to the property is caused intentionally, the person is liable to the owner for 2 times the
owner’s actual damages plus any additional costs recoverable under subsection 3, paragraphs B and C. Ifthe damage
to the property is not caused intentionally, the person is liable to the owner for the owner’s actual damages plus any
additional costs recoverable under subsection 3, paragraphs B and C.
3. Damages recoverable. The owner’s damages include:
A. Actual damages, as measured by subsection 4;
B. Costs the owner may incur if the damage results in a violation of any federal, state or local law or
ordinance and, as a result, the owner becomes the subject of an enforcement proceeding. These costs
.include attorney’s fees, costs and the value ofthe owner’s time spent on involvement in the enforcement
proceeding; and.
C. Reasonable attorney’s fees for preparing the claim and bringing the court action under this section plus
costs.
4. Measure of damages. For damage to property under Subsection 1, paragraph A, the owner’s damages may be
measured either by the replacement value ofthe damaged property or by tile cost of repairing the damaged property.
For damages for disposing of litter, the owner’s.damages include the direct costs associated with properly disposing
of the litter, including obtaining permits, and the costs associated with any site remediation work undertaken as a
result of the litter,
5. Other actions barred. A recovery from a defendant under this section bars an action to recover damages under
section 7552 from that defendant for the same specific damage.

($tt) ■*

The evidence is undisputed that Mr. BaUerstein cut down McHatten’s chain link fence and
damaged its concrete footer. The statute requires that such trespass be committed “intentionally”,
that is that the trespasser intentionally entered the land of another. The concept of intentional
action is another word in the legal lexicon that can have a meaning that is sometimes not fully
understood.
• In order to become liable for a trespass on land, all that is necessary is the intent to be on
the particular part of the land; it is not necessary for the defendant to know that the land is owned
by another. The court’s understanding of. this aspect of the law comes from several different
sources.
First, the intent section of the "Trespass to Land" chapter of Maine Tort Law states, "The
minimum intent necessary for the tort of trespass to land is simply acting for the purpose of
being on the land or knowing to a substantial certainty that one's, act will result in physical
presence on land. It is not necessary that a defendant know or have reason to know that his
presence on land is wrongful." Simmons, Zillman & Furbish, Maine Tort Law § 5.13 at 5-23 to 24 (2018 ed. 2017). Moreover• "A good-faith belief in one's own right to be on the land and
good faith reliance on one's own deeds are no defense. The boundary and title cases all
necessarily, albeit implicitly, support that proposition." Id § 5.13 at 5-24.
Second, a relatively recent United States District Court case summarized Maine law on
the issue:
“Under Maine law, common-law trespass and statutory trespass share a common element:
the defendant's intentional entry onto another person's property. See Hayes v. Bushey,
160 Me. 14,196 A.2d 823, 824 (Me. 1964); 14 M.R.S.A. § 7551-B(1). "The
minimum intent necessary for the tort of trespass is simply acting for the purpose of

.15

being on the land or knowing to a substantial certainty that one's act will result in
physical presence on the land." Gibson v. Farm Family Mut. Ins. Co.. 673 A.2d 1350,
1353 (Me. 1996) (quoting Jack H. Simmons et al., Maine Tort Law § 5.13, at 5-22
(2004); see also Prosser and Keeton § 13, at 73 ("The intent required... is simply an
intent to be at the place on the land where the trespass allegedly occurred."). Of course, "a
person may trespass without intending to trespass": intentional presence
suffices. United States Fidelity and Guar. Co. v. Goodwin. 950 F. Supp. 24,27 n.2 (D.
Me. 1996); see also Hayes, 196 A.2d at-825* ("It is necessary to keep in mind the
distinction between the intention to do a wrongful act or commit a trespass and the
intention to do the act which results in or constitutes the intrusion."). Damev v. Dragon
Prods. Co.. LLC. 640 F. Supp. 2d 117,123-24 (D. Me. 2009).
Accordingly, the court concludes that by going onto McHatten property and cutting down the
chain link fence, Mr. Bdllerstein has committed a statutory trespass pursuant to M.R.S. §7551-B
and he is subject to its statutory remedies.
Count 6: Each plaintiff has claimed damages pursuant to statutory trespass as provided
for within 14 M.R.S. § 7552.
Having sustained her claim for statutory trespass pursuant to 14 M.R.S. § 7551-B,
McHatten is barred from pursuing any claim pursuant to 14 M.R.S. § 7552.

i
i

Count 7: Each plaintiff has claimed damages for conversion.
The damages available for the tort of conversion are identical to the damages available
for statutory trespass pursuant to 14 M.R.S. § 7551-B. A plaintiff is limited to one recovery and
therefore the court does not further address .this claim.
Count 8: Each plaintiff has claimed damages for the intentional infliction of mental
distress.

(B(ft

16

In order to prevail on her claim for the intentional infliction of mental distress, McHatten
must prove that it is more likely than not that:
1. The Ballersteins, or either of them, engaged in conduct that intentionally or recklessly
caused severe emotional distress, or that the Ballersteins, or either of them, were
certain or substantially certain that severe emotion distress would result from their
conduct.
2. The conduct was so extreme and outrageous as to exceed all possible bounds of
decency and must be regarded as atrocious and utterly intolerable; and
3. McHatten suffered severe emotion distress as a result of the Ballersteins’ conduct.
The concept of “serious emotional distress” means something more than minor psychic and
emotional shocks, something more than the usual and insignificant emotional traumas of daily
life in modem society. Serious emotional distress means mental stress, created by the
circumstances of the event, that a reasonable person, normally constituted, would be unable to
adequately endure.19
A person acts “intentionally’” with respect to a result of his conduct when it is his
conscious object to cause such a result. A person acts “recklessly” with respect to the result of
his conduct when he consciously disregards a risk that his. conduct will cause such a result. The
disregard of that risk, when viewed in light of the nature and purpose of the person’ s conduct and
the circumstances known to him, must involve a gross deviation from the standard of conduct
that a reasonable and prudent person would observe in the same situation.20
Although it is evident that all parties to this litigation experienced varying levels of upset,
exasperation, frustration, pique, and anxiety, the court is not persuaded that McHatten’s
emotional responses rose to that level of severe emotional distress that the law requires be
proved by a preponderance of the evidence. Further, however unneighborly the Ballersteins

19 Sac Alexander, Maine Jury Instruction Manual § 7-72 (2017)
20 See 17-A M.R.S. § 35.

might have appeared to McHatten to have been, Hie court is not persuaded that the Ballersteins,
or either of them, acted either intentionally or recklessly for Hie purpose of causing McHatten
emotional distress,
Accordingly, the court finds for the Ballersteins on this claim.
Count 9: Each plaintiff has claimed damages for the negligent infliction of mental
distress.
In order to prevail on a claim for the negligent infliction of mental distress, McHatten
must prove by a preponderance of the evidence each of the following elements:
1. That the Ballersteins, or either of them, were negligent, that is, that they did something
which an ordinary, careful person would not do or they failed to do something which
an ordinary, careful person would do considering all of the circumstances of the case.
That is, McHatten must prove that the Ballersteins, or either Of them, failed to use
ordinary care in their interaction with McHatten; and
2. That it was reasonably foreseeable that McHatten would suffer emotional distress as
the result of the Ballersteins’ negligent conduct; and
3. That McHatten suffered serious emotional distress as a result of the Ballersteins’
conduct.
The .court need only consider the third element in order to rule on this claim Although
McHatten undoubtedly suffered an emotional response to the Ballersteins’ actions that could be
described as “emoHonal distress” for her, the court is unpersuaded that it rose to the level of
“severe emotional distress that no reasonable person could be expected to endure*” A failure of
proof on this element obviates the need to address the other elements.
On this claim, the court finds for the Ballersteins.
2. THE HAFFORD CLAIMS.
Count 1: Each plaintiff seeks a declaratory judgment regarding the common boundary
shared with the Ballersteins.

(&CT) «

The court also accepts Mr. Roix’s opinion regarding the location of the common
boundary shared by the Ballersteins and the Haffords. This boundary is indicated by the
highlighted yellow line on Plaintiffs Exh. 10A. As noted above, both the Ballerstein deed and
the Hafford deed contain multiple calls for distances that are “more or less”. In the court’s view,
this creates deed descriptions that are only “approximate.” Determining the probable location of
the intended boundaries necessitates the kind of comprehensive review of relevant deeds and
field work that Mr. Roix undertook.
There are several aspects of the evidence that would appear to support Mr, Roix’s
opinion regarding the location of the Hafford boundary as being more northerly than that for
which the Ballersteins advocate. He notes that in 1959, Merlon and Isabelle Wiggin acquired the
land out of which both the Ballerstein and Hafford. lots were created. The Wiggins then conveyed
part of this lot to Burton and Wilma Tompkins. (See Plaintiffs Exh. 20)21 The description of the
Wiggin to Tompkins deed is the same as that set forth in the Ballerstein deed. At about die same
time as this conveyance, i.e. October of 1959, Richard Holmes prepared a survey primarily of the
lot retained by Wiggin but also showing part of the Tompkins’ lot to the north and a lot
measuring 12’ by 125’ that was at some point conveyed to Joseph and Gloria Olore. (See
Plaintiff’s Exh. 21) What is significant to the court about the survey, made very close in time to
the Wiggin to Tompkins conveyance, is that it shows that the disputed boundary line lies to the
north of the building that is also shown on the survey. This building is the Hafford home. The
boundary location being advocated by the Ballersteins places the boundary literally at the very

21 Presumably this deed was signed and acknowledged by the grantors. The exhibit consists only of the first page
and does not contain a signature or acknowledgement page that would reflect the date of conveyance. Mr. Roix
suggested the conveyance occurred in August of 1959. There is a handwritten notation in the margin that the court
cannot entirely decipher but does include a reference to a date of October 16,1959. The court infers that this was the
date the deed was probably received in the registry.

BUI »

ranoa

il-

r

edge of the physical structure of the Hafford home. The court shares Mr. Roix’s view that it was
very unlikely that Mr. and Mrs. Wiggin would have made a conveyance to Tompkins (now
Ballerstein) intending a southerly boundary for Tompkins that came within inches of the side of
their home.
The court notes that the Richard Holmes survey of April 1976 (See Plaintiffs’ Exh. 13) also
Shows what the court infers to be the northerly side of the Hafford home and depicts a boundary
line at least a few feet to the north of the home.22
The court is persuaded that the best solution reconciling all of the available information,
albeit not a perfect solution, is the solution adopted by Mr. Roix. This is a solution predicated
upon his analysis of the “complete picture” regarding the conveyances in the vicinity of the
comer lots of Dupont Drive. Mr. Roix’s deed research and review, his field work and his logical
analysis make sense to this court and accordingly the court concurs that the Hafford northerly
boundary is that line which Mr. Roix has highlighted in yellow on Plaintiff’s Exh. 1Q-A. The
court also finds that the line of spruce trees referred to herein (Count 6) were located on the
Hafford property.
Count 2: Each plaintiff contends they have established title to disputed land according to
the principles of the doctrine of adverse possession.
Although'the court’s determination regarding the location of the Haffords’ northerly
boundary as set forth above obviates the need for any extended discussion of their claim for
adverse possession23, it is worthy of note that the Ballersteins essentially concede the possibility

22 The court notes that although there is no symbol key that would support this opinion, the survey also appears to
show what looks like a fence along the McHatten and Ballerstein boundary that would support an inference that the
chain link fence and footer fell on the McHatten side of the line.
23 A party claiming title by adverse possession has the burden of proving, by a preponderance of the evidence, that
possession and use of the property was (l)actual; (2)open; (3) visible; (4) notorious; (5) hostile; (6) under claim of
rigid; (7)continuous; (8) exclusive; (9) for a duration exceeding the twenty-year limitations period.” Weeks v Krvsa.
2008 ME 120.1112.955 A.2d 234,
/

i-

that the Haffords might have established ownership of at least that part of the property upon
which the Hafford driveway and retaining wall are located24. Moreover, the long term (in excess
of 20 years) use of the driveway and retaining wall coupled with the Hafford’s mowing of the
grass up to the Lavin’s split rail fence and their general use of their backyard area for a variety of
other purposes including a swimming pool for grandchildren would make it seem likely to the
court that they would have established adverse possession at least along a straight line at the
northerly edge of the retaining wall back along the line of spruce trees to the easterly bound of
their property. To limit that line just to the outline of the driveway and retaining wall would
produce a “zig zag” property line that could not be reconciled with the facts or common sense.
Notwithstanding this observation,, the controlling determination of the court is that the Hafford
northerly boundary is as opined by Mr. Roix.
Count 3: Each plaintiff contends they have established title to disputed land according to
principles of the doctrine of title by acquiescence.
Because the court has determined the location of the Hafford northerly boundary as set
forth above in Count 1, it is unnecessary to address the claim set forth in Count 3.
Count 4: Each plaintiff claimed damages for common law trespass.
Because the Haffords have abandoned any claim for common law trespass, it is
unnecessary to address the claim set forth in Count 4..
Count 5: Each plaintiff has claimed damages pursuant to statutory trespass as provided
for within 14 M.R.S. § 7551-B.
The line of spruce trees along the Hafford northerly boundary is the focus of the Hafford
claims for statutory trespass. Mr. Roix’s opinion, accepted by the court, places the spruce trees
on the Hafford side of the boundary. However, in the court’s view, the Haffords have failed to

24 See Defendants’ Closing Argument, page 18.

(s fl) 21

?

establish that flic cutting of spruce branches falls within the prohibited conduct set forth im 14
I
{

M.R.S. § 7551-B (1)(A) or (B). In any event, because the court sustains the Haiford data
pursuant to 14 M.R.S. § .7552; the claim set forth in Count 5 is barred.
Count 6: Each plaintiff has claimed damages pursuant to statutory trespass as provided
for within 14 M.R.S. § 7552as.

i
i

25 The relevant parts of 14 M.R.S. § 7552 provide;
§ 7552. Injury to land, forest products or agricultural products
1. Definitions. As used in this section, unless the context otherwise indicates, the following terms have the
following meanings.
B. “Christmas tree” and “evergreen boughs*' have the same meanings as provided in Title 12. section 8841.
C. “Forest products” means evergreen boughs or cones or other seed products.
E. “Professional services” may include:
(2) A boundary survey
(4) Attorney's fees for preparing fee claim and bringing a court action.
2. Prohibitions. Without permission of fee owner a person may not:

!
;
(
;

;

A. Cut down, destroy, damage or carry away any forest product... .or property of any kind from land not
feat person's own; or
3. Measure of damages. Ibis subsection governs fee measurement of damages resulting from a violation of
subsection 2.
A When... forest products have been destroyed or carried away, the owner may recover as damages either
the value offee lost products themselves or the diminution in value ofthe real estate as a whole resulting
from fee violation, whichever is greater.
4. Damages recoverable. Damages are recoverable as follows.
A A person who negligently or without fault violates subsection 2 is liable to the owner for 2 times the
owner’s damages as measured under subsection 3 or $250, whichever is greater.
B. A person who intentionally or knowingly violates subsection 2 is liable to the owner for 3 times fee
owner’s damages as measured under subsection 3 or $500, whichever is greater.
D. A person who with malice violates subsection 2 is subject to punitive damages in addition to fee
damages under paragraphs A, B and C.
5. Costs and fees. In addition to damages, interest and costs, the owner may also recover from the person who
violates subsection 2 the reasonable costs of professional services necessary for determining damages and proving
the claim as long as the person first has written notice or actual knowledge that a claim is being asserted.
8. Other actions barred. A recovery from a defendant under this section bars an action to recover damages under
section 7551-B from that defendant for the same specific damage.
12 M.R.S. § 8841 provides in relevant part:
For the purpose of this Article the following terms shall have the following meanings.

[2>(I) a
\

¥

A line of at least 4 mature spruce trees were located long the northerly border of the
Hafford property since they acquired title in 197426. The court finds that these trees were in fact
located within the Hafford property. In August of 2017, the lower branches of these spruce trees
extended all the way to the ground and essentially created a privacy barrier for the Haffords. The
court accepts Mrs. HaffOrd’s testimony that Mr. Ballerstein cut the lower branches off each tree
up to a height of approximately eight (8) feet and that he did so without permission. Mr.
Ballerstein later cut down each tree and removed the stumps. Although Mrs. Hafford began to
regret her decision almost immediately and although she might have felt some initial social
pressure to avoid conflict with her neighbor, she did in fact give Mr. Ballerstein permission to
cut down the trees as he did. Accordingly, the focus of inquiry with regard to this claim must be
the initial cutting of branches that Mr. Ballerstein did without permission.
The statute prohibits the cutting down, damaging or destroying “forest products” among
other things. On its face, it would appear that evergreen boughs, i.e. branches, fall within the
definition of “forest products.” However, “evergreen boughs” has die same meaning, as appears
in 12 MR.S. §8841. The relevant parts of that statute provide:
For the purpose of this Article the following terms shall have the following meanings.
2. Evergreen boughs. ‘Evergreen boughs” means boughs or tips of all species of
coniferous trees cut for commercial purposes, (emphasis supplied)
There is no doubt that a spruce tree is a coniferous tree and that Mr. Ballerstein cut evergreen
boughs (branches) from these spruce trees without permission of the owner. However, there is

2. Evergreen boughs. “Evergreen boughs” means boughs or tips of all species of coniferous trees cut for
commercialpurposes.

u Tbs tops of these trees can be seen in Plaintiffs’ Exh. 4 along with the shadows they cast into the Ballerstein
property.

(B(l) 23

no evidence tbat he did so for commercialpurpom and this would appear to be a required
element of proof to bring die branches within the definition of “forest products.”
Notwithstanding.this conclusion however, 14M.R.S. § 7552 provides:
2. Prohibitions. Withoutpemiission of the owner a person may not:
A. Gut down, destroy, damage or carry away any forest product.. ,or property ofany kind
(emphasis supplied) from land not that person’s own.
This “catch all” provision would appear to bring the branches that Mr. Ballerstein cut back
within the prohibition provisions of die statute, notwithstanding that the branches were not cut
for commercial purposes.
It seems clear that the Ballersteins engaged in the actions they did under a mistaken belief
that they owned the spruce trees. As the case law has developed, it appears that the question of
whether the trespasser’s'conduct was “negligent or without fault” contemplates a more subjective
and deliberate willfulness’, equating with an awareness of their own trespass.27 The evidence
fails to establish that’the Ballersteins’ conduct was “negligent or without fault” and it does not
establish that they acted with actual malice.
Finally, die court notes that 14 M.R.S. § 7552 (5) requires that a trespasser must have
received written notice or have actual knowledge of his trespass before the reasonable costs of
professional services become implicated. There is no evidence that the Haffords ever provided
written notice to the Ballersteins before any of their offending actions. This fact would foreclose
an award for professional services under this statute. Such actual damages as may be proven at

27 In the court’s view, an award of damages pursuant to 14 M.R.S. § 7552(4)(b) is not implicated by the evidence in
this case. The Law Court has indicated that in order for a cutting to be done “knowingly”, the trespasser must be
subjectively aware that he is acting improperly. In order for a cutting to be done “willfully" the trespasser must
display an utter and complete indifference to and disregard for the rights of others. A mistake as to a boundary does
not rise to this level. See Bonk v McPherson. 605 A.2d 74,78 (Me. 1992)

(BCD ?.4

hearing and an award of interest and costs pursuant to court rules and related statutes are not
foreclosed.
The court finds for the Haffords against the Ballersteins on this claim as provided for
herein.
Count 7: Each plaintiff has claimed damages for conversion28.
The Ballersteins have converted the Haffords’ branches cut from the spruce trees.
However, 1he court has already found that the Haffords are entitled to an award of damages upon
the claim set forth in Count 6. The measure of damages would be identical to any award for
conversion and accordingly, die court does not further discuss this claim.
Count 8 . Each plaintiff has claimed damages for the intentional infliction of mental
distress.
The court finds that Mrs. Hafford has suffered emotional distress as the result of this
litigation. The court accepts her testimony that she has experienced significant anxiety and upset
and that she visited with her physician in search of relief. Notwithstanding these facts, as
discussed in connection with the MeHatten claim, in order to recover for a claim of intentional
infliction of mental distress, a plaintiff must prove that the defendant acted either intentionally or
recklessly. However unneighborly the Ballersteins may have conducted themselves, the court
cannot find that they acted intentionally for the purpose of causing Mrs. Hafford mental distress,
or in the alternative, that they did so recklessly.
The court finds for the Ballersteins on this claim.

28 The elements of the tort of con version are: (1) a showing that the person claiming that his property was converted
has a property interest in the property; (2) that he had the right to possession at the time of the alleged conversion;
and (3) that the party with the right to possession made a demand for its return that was denied by the holder. Where
property is taken unlawfully, there is no requirement that the plaintiff prove a demand for return. See Simmons, et
al, Maine Tort Law (2004) §6.09.

(6U1 »

Count 9: Each plaintiff has claimed damages for the negligent infliction of mental
distress.
As the court discussed in connection with the McHatten claim for the negligent infliction
of mental distress, a required element of proof is that a plaintiff suffer “serious emotional
distress” as the result ofa defendant's negligent actions. The court does not mean to discount the
level of stress and anxiety that Mrs. Hafford has experienced. The court is very well aware that
litigation is an enormously stressful personal experience and that significant anxiety is often its
inevitable byproduct However, the burden is upon the plaintiff to prove that it was a specific
negligent act ofthe defendant that caused his or her mental distress. The kind of mental distress
that accompanies another person’s ill humor or unneighborly behavior or the stress of resulting
litigation does not fall within the parameters of the tort as this court understands it. Accordingly,
the court finds for the Ballersteins on this claim.,

3. THE BALLERSTEIN CLAIMS
Count 1: Defamation of character
The Ballersteins’ counterclaim pleading fails to state with any particularity the specific
statements attributable to each Plaintiff upon which the Ballersteins rely for their claims. Their
counterclaim pleadings are essentially that the “Plaintiffs” all slandered “us.” Focusing on those
claims set forth within their closing argument and regarding any and all other claims as having
been abandoned, the claims appear to be as follows:
1. McHatten accused Mr. Ballerstein of subjecting his children to “slave labor” which
would constitute a violation of child labor laws29.

29 It appears that the Mr. Ballerstein contends the same statement was made on two separate occasions. The court
makes the same findings with regard to each such statement.
2$

2, Mr. Hafford stated that Mr. BaUerstein did not perform his professional duties [as a
school teacher].
3. McHatten talked about the Ballersteins with passersby on the bike path.
4. The Haffords and McHatten have all slandered the Ballersteins to their neighbors.
5. The “plaintiffs” have slandered the Ballersteins to the plaintiffs’ lawn maintenance
workers.
In order to prevail on a claim for defamation in the form of slander, i.e. spoken words as
distinguished from written words i.e. libel, a plaintiff must prove that the speaker:
1. Made a false and defamatory statement concerning another;
2. Made an unprivileged publication to a third party;
3. That Ihe speaker was at fault, or was at least negligent; and4. The communication was either actionable irrespective of special harm or the subject of
the communication in fact suffered special harm30.
1. McHatten accused Mr. BaUerstein of subjecting his children to “slave labor” which
would constitute a violation of child labor laws.
The court finds that McHatten provided the more reliable account of the circumstances
that underlie this claim. The court accepts her account of the interaction between herself and Mr.
BaUerstein and rejects his account.31 According to McHatten, shortly after the Ballersteins
moved into their property, she noticed that Mr. BaUerstein was outside raking leaves with his
children. There is no record evidence regarding which of the Ballersteins’ four children were

30 Special harm generally refers to an “actual injury”; either economic loss or an impairment of reputation and
standing in the community, personal humiliation or mental anguish and suffering. Ihe law has recognized that some
communications can amount to “slander per se”, that is, that some communications are so likely to cause injury that
they are actionable even in the absence of proven actual injury. See generally, Simmons, et al, Maine Tort Law
(2004 ed.) §13.16
31 A fact-finder decides the believability of witnesses and may selectively accept, reject, or combine testimony in
any way. See Alexander, Maine Jury Instruction Manual (2017) Comment citing Readron v Larkin. 2010 ME 86,1ft!
14-17,

(B(A 27
V.

present at the time or if all of them were present. There is no record evidence of the ages of these
children or of what their level of comprehension might have been. There is no record evidence of
what their proximity to McHatten and Mr. Ballerstein might have been at the time of any
statement that McHatten made. There is no admissible evidence from the children, regarding
what they might have heard or what they might have understood from the words spoken. The
court accepts McHatten*s testimony that she made a reference to “child labor laws” as a joke.
The court finds that McHatten’s statement was intended as an attempt at humor and a simple
neighborly pleasantry intended as a preliminary attempt to “break the ice” with a new neighbor.
The first question then is whether McHatten made a defamatory statement at that time.
The court finds that she did not. As we see in Maine’s leading treatise on this subject,
“The allegedly defamatory communication must be read in Context The context typically
includes the entire publication together with all extrinsic circumstances known to the recipients.
A communication should be interpreted as it Would be reasonably understood; [not by the
claimant but by the listener] under the circumstances.. .Conversely, a statement that may appear
defamatory on its face could have been made in circumstances that would not lead persons to
believe the words had been spoken seriously or truthfully. » 32
Keeping in mind that a central consideration regarding defamation is whether the
communication had some tendency to lower a person’s standing in the estimation of the
community or to deter third persons from associating or dealing with him, this court concludes
that ho reasonable person could have interpreted McHatten’s comment as anything other than a
joke and no reasonable person could conclude that it would have had any potential whatsoever to

32 See Simmons et al, Maine Tort Law (2004 ed.)§ 13.04.

V

28

reduce Mr. Ballerstein’s reputation or standing in the community in the eyes of his children or in
any way to deter them from interacting with him.
Accordingly, Mr, Ballerstein cannot sustain a claim for defamation predicated upon
McHatten’s reference to child labor laws in the presence of his children because such a statement
in those circumstances was simply not defamatory. The court finds for McHatten on this claim.
2. Mr. Hafford stated that Mr. Ballerstein did not perform his professional duties [as a
school teacher].
.
.
In support of his claim, Mr. Ballerstein testified that on one occasion Mr. Haffprd told
. him that [Mr. Ballerstein] “did not do any work at his job.” He testified that the statement was
made in the presence of Mr. Hafford’s adult son Sammy. There is scant record evidence of the
circumstances surrounding the making of this statement. As already indicated herein, statements
alleged to be defamatory must be considered in context. Moreover, it is the effect upon the
listener that matters, not the effect upon the claimant. That Mr. Ballerstein interpreted the
statement to mean that he was unfit to be a school teacher does not suffice.
Also, this court has no way of knowing whether Mr. Hafford was communicating an
opinion that teaching school was not real work as opposed to some other form of more physical
labor or whether he had somehow become familiar with Mr. Ballerstein’s actual job performance
as a school teacher and believed that it was substandard. On this record, there is simply no way
to know whether Mr. Hafford was expressing an opinion that school teachers in general were
overpaid or whether he was seeking to make some other point. There is no record evidence to
indicate to the court whether Mr. Hafford’s statement was a serious one or one made in jest.
Under Maine law; allegations that would adversely affect one’s fitness for the proper
conduct of a business, trade, profession, or public or private office are actionable without proof

\

(B(fl

29

of special damages. The Law Court has written “Specifically, the term slander per se refers to
words that on their face without further proof or explanation injure 1he plaintiff in his business or
profession, i.e. they are deemed to be defamatory by themselves. In this case [referring to the
case before the court then on appeal] we are concerned with words that are actionable per se, that
is, words that when considered in the circumstances surrounding their utterance adversely reflect
on the [claimant’s] business or occupation.’’ Ramirez v, Rogers. 540 A.2d 475,478 (Me. 1998)
Mr. Ballerstein had the burden of proof on this claim, including the burden of proving
that Mr. Hafford made a defamatory statement. The words spoken are not defamatory on their
face. Defamation could only be found after consideration of the surrounding circumstances of .
thenutterance. Without more evidence of those circumstances than appears in this record, Mr.
Ballerstein has failed to persuade this fact finder that Mr. Hafford made a defamatory statement
that would support the claim. The court finds for Mr. Hafford.
3. McHatten talked about the Bdllersteins with passersby on the bike path.
4. The Haffords and McHatten have all slandered the Ballersteins to their neighbors.
5. The “plaintiffs” have slandered the Ballersteins to the plaintiffs’ lawn maintenance
workers.
The court discusses the remaining three claims collectively because they all suffer from
the same fatal defect. The court has no idea what specific statements attributed to any of the
Plaintiffs the Ballersteins contend were defamatory. The court simply has no record evidence
upon which even to begin making a determination regarding whether any of the Plaintiffs made
any statement that might be regarded as defamatory. The Ballersteins seek to make claims for
injury to reputation predicated upon observations that McHatten was seen speaking with
passersby; upon a general non-specific allegation that both Plaintiffs have slandered them to their
neighbors; upon a further non-specific allegation that “the Plaintiffs” have slandered the
Ballersteins to the Plaintiffs’ own lawn maintenance workers. The Ballersteins have provided no

(B(T) 30
V

t-i. 1 -h’ ■

l?
evidence of what statements they contend were defamatory or any evidence of the time, place or
actual circumstances surrounding these allegations of defamation. They have failed in meeting
their burden of proof.33 On defamation claims 3,4 and 5, the court finds for each Plaintiff.
Count 2: Intentional Infliction of Emotional Distress
The court has no difficulty in finding that this litigation experience has been as much a
source of anxiety and frustration for the Ballersteins as it has been for the Plaintiffs. However,
that does not prove that any of the plaintiffs have “intentionally or recklessly” engaged in
behaviors for the purpose'of causing either, or both Ballersteins severe emotional distress or
engaged in behaviors representing a gross deviation from the standard of conduct that a
reasonable person would have observed in the same situation or where they consciously
disregarded a risk that their conduct would cause severe emotional distress. The Ballersteins
have also not proven that they suffered “severe emotional distress” as the court has discussed
herein. "What the Ballersteins have demonstrated is that they appear to be persons with
heightened sensitivities to perceived affronts. It is clear that they are easily offended. In this
court’s view, this has distorted their perceptions of circumstances and has made the court slow to
accept their accounts of disputed events. The court finds for the Plaintiffs on the Ballersteins’
claim for the intentional infliction of emotional distress.34
INJUNCTION

i
i

33 The court rejects the Ballersteins’ argument that the Plaintiffs’ responses to counterclaim allegations of “lacking
information sufficient to form a belief as to the truth or falsity of the allegation” amount to admissions. M.R.Civ. P.
8(a) requires the claimant to set forth a “short and plain statement of the claim showing that the pleadW is entitled to
relief.” M.R.Civ.P. 8(b) provides in part, “If the party is without knowledge or information sufficient to form a
belief as to the truth of an averment, the party shall so state and this has the effect of a denial.” In light of this rule, it
would be the Ballersteins’ pleadings that are defective rather than the Plaintiffs’.
3<i Having determined that the Ballersteins have failed to demonstrate their entitlement to general damages, it is
unnecessary to consider the issue of punitive damages.

£>(1^ 31
*v.

r

In connection with the filling of their complaint, the Plaintiffs also filed a Motion for a
Preliminary Injunction. As indicated herein, the parties reached an informal agreement to
maintain the “status quo" during an early stage of these proceedings and accordingly, the court
deferred taking any action upon the request for injunctive relief. Pursuant to the provisions of
M.R.Civ.P. 65 (b)(2) the court has consolidated the request of an injunction with the hearing on.
the merits. Although there are questions regarding damages that remain for the second part of the
bifurcated hearing, the principal contests between the parties were with regard to their common
boundaries. The-court has now addressed those disputes. The remaining questions regarding
damages need not delay the court issuing its Order for injunction relief.
Therefore, the court Orders as follows:
1. The Defendants Paul F. Ballerstein and Goldie E. Ballerstein (the Ballersteins) are
Ordered to cease and desist from any further interference with Penelope McHatten’s and with
Kenneth B. Hafford’s and Susan P. Hafford’s use and enjoyment of their respective properties,
the boundaries of which are established herein.
2. As soon as is reasonably practical, but no later than May 15,2020, the Ballersteins

I

l

shall at their own expense remove any and all markers purporting to be survey pins or boundary
markers of any kind that they or their agents have placed on property determined to belong to
McHatten or the Haffords herein35. At the conclusion of this litigation and upon the court’s
judgment becoming a final judgment without further right of appellate review, either McHatten

35 At the conclusion of this litigation and only upon the court’s j udgment of this date becoming a final judgment, the
Plaintiffs may at their own election and expense preparo an abstract of the court’s decision and record the same in
the Southern Aroostook Registry of Deeds. That abstract shall simply state that “The Survey of Bridgham
Engineering & Land Surveying, Inc. recorded at Volume 43 Page 30A does not reflect the easterly boundary of the
property of Penelope McHatten (Book 3432 Page 222) or the northerly boundary of the property of Kenneth B.
Hafford Jr. and Susan P.Hafford (Book 1152 Page 300) as reflected in the judgment of the Superior Court in
CARSC RE-2018-53.” Any such abstract shall be submitted to the Superior Court for certification prior to
recording.

I

1
I

V>(X) 3J

%

;r
or the HafFords or both of them, at their own option and expense, may cause appropriate
boundary monuments reflecting the court’s judgment herein to be placed upon their respective
properties. When and if the court’s judgment becomes a final judgment and if they so choose,
!

they may also cause a final survey reflecting the court’s judgment to be prepared and may record
the same in the Southern Aroostook Registry of Deeds.
3. As soon as is reasonably practical, but no later than May 15,2020, the Ballersteins
shall remove any fencing they have placed upon property that the court has now determined to
belong to McHatten or the HafFords.
4, As soon as is reasonably practical, but no later than May 15,2020, the Ballersteins
shall remove' any stones, rocks, or other materials of any kind that they have caused to be placed
upon property the court has determined to belong either to McHatten or to the HafFords.

•f.
Vi.

The court directs the Clerk to schedule a hearing on damages at such time and place as
the court’s schedule permits but no sooner than 30 days from the date of this decision and Order.
%

Finally, the court is inclined to borrow from the wisdom of Hon. Edward S . Godfrey HI,
former dean of the University of Maine School of Law and Associate Justice of the Maine State
Supreme Court. At the conclusion of the Law Court’s decision in Proctor v. Hinklev, 462 A.2d
465 (Me. 1983), and as he reversed a referee’s decision in a boundary dispute, Justice Godfrey
wrote, “It is regrettable that [the referee’s] definition of the parties’ common boundary must be
undone because of technical error when the only practical result is to leave unsettled the
ownership of afew square feet ofterrain having little economic value (emphasis supplied). This
Court urges counsel for both parties to try to persuade their clients to enter into some practical
but formal and recordable agreement locating the boundary line in question.”

($60 33

r

r

This court offers similar encouragement to the parties in this case. Although the court has
done its best and feels that it has decided the issues correctly, it suffers froka no illusion that its
judgment is completely and absolutely free from error and recognizes that other wiser minds
might reach a different, set of conclusions. If that should come to pass, the parties may have yet
another opportunity to make a further investment of their time, money and mental health in the
continued litigation of their respective contentions in tins case, On the other hand, the.parties
may, benefit from reflecting on whether the value of a few feet, perhaps only a few inches, of
disputed property that is of little economic value is really greater than the personal cost that each
might pay if they choose to pursue potentially endless litigation. The opportunity that each party
has to bring an end to litigation and to reach a final result they could define for themselves
remains.

The forgoing reflects the court’s decision on the first part of a bifurcated hearing. It is not
a final judgment subject to appeal. The court will issue a final judgment at the conclusion ofthe
hearing on damages and that judgment will be subjectto appellate review by either party in all
respects if they so choose.
t

The entry shall be: The court has concluded tlle first part of a bifurcated trial and declared
its judgment regarding the location of disputed boundaries. It has also rendered decisions
regarding liability on the civil claims. The Clerk is directed to schedule the second part of the '
bifurcated trial for a hearing on damages.

52T

Date: f^Z ? ^2. &

E. Allen Hunter
Justice of the Superior Court (Active Retired)

ENTERED ON THE DOCKET

^ V

(1(1) *
\

i

•>

' I

■/'

/
«

SUPERIOR COURT
DOCKET NO. CARSC-RE-2018-53

‘ STATE OF MAINE
AROOSTOOK, ss

"v

PENELOPE MCHATTEN
Plaintiff

)

)
)
)
)
)
)

And

KENNETH B. HAFFORD and
SUSAN P.HAFFORD
Plaintiffs

Vs

PAUL F. BALLERSTEIN and
GOLDIE E. BALLERSTEIN
Defendants

)
)
)
)
)
)
)
)
)
)

FINAL JUDGMENT

).

On February 19, 2020, the court commenced hearing on the second phase of the
bifurcated trial of this case. On that date, the Plaintiff McHatten and the Plaintiff Susan Hafford1
appeared with counsel. Neither of the Defendants appeared personally or through counsel .2

t
■

A3

1 Because of his personal health issues, Mr. Hafford had not been subpoenaed and was. not otherwise required to be
present.
2 Although the court had indicated in its Decision dated January 29,2020 that the Clerk should wait for 30 days
before scheduling the hearing on damages, she confirmed with both parties that the matter could be set for hearing
on February 19,2020 which would fell within a school vacation week for Mr. Ballerstein. The Clerk has reported to
the court that she has had three different contacts with the Ballersteins during the two weeks preceding the date of
the hearings including one on February 18,2020, and received no indication that they did not intend to appear and
participate. On the date of the hearing, the Clerk contacted the Presque Isle District Court to determine if perhaps
they were confused about the location of the hearing and learned that they had not mistakenly appeared there. They
had not filed any motion to continue the hearing nor did they telephone the court to advise of any personal
emergency that might otherwise account for their absence. The court proceeded to conduct the hearing without their
participation On February 20,2020, the Clerk reported to the court that the Defendants had called in to the court to
inquire if the court had issued a judgment following the hearing on February 19. The court is therefore satisfied that
the Defendants were aware of the scheduled hearing and simply chose not to appear or to participate in anyway. The
file reflects that, as instructed, Plaintiffs’ counsel submitted his written argument on damages and a request for
reconsideration on February 24,2020 and sent a copy to the Defendants. As of this date, the Defendants have not
submitted any written statement of position or expressed any opposition to arty of the arguments and requests that
the Plaintiffs have tendered.

(1®

1

/■

/
/
/
)

t,

\

¥i<

m

i:
X

AMENDED DECISION ON RECONSIDERATION

’t

1

The court issues the following decision as the final judgment of the court. The court’s
Decision Re: Declaratory Judgments and Questions of Liability dated January 29,2020, as
amended herein, shall be deemed to be incorporated herein and shall, together with this decision.
constitute the final judgment of the court as of the date that appears below.
The court has considered the Plaintiff Haffords’ written position statement and accepts
the argument that the court’s initial interpretation of the damages available to the Haffords
pursuant to 14 MILS. § 7552 was incorrect?. The court found that the Defendant Paul
Ballerstein’s cutting of the Hafford spruce tree branches was the product of his mistaken belief,
predicated upon the determination by surveyor Mr. William Genish, that the spruce trees were
located on the Ballerstein lot This is a Ending that Mr. Ballerstein acted withoutfault in cutting

^

the branches4. A person who damages another person’s “property of any kind” “negligently or
without fault’ is in violation of 14 MRS 7552(2). Consequently, Plaintiffs’ counsel is correct that
this finding potentially triggers an award of damages pursuant to 14 MRS § 7552(4) and because
it is a finding that Mr. Ballerstein violated 14 MRS §7552(2), it serves as a potential predicate
for an award of the costs ofprofessional services pursuant to 14 MRS §7552(5).
The next question becomes whether Mr. Ballerstein “first [had] written or actual notice
that a claim is being asserted”. In its preliminary decision, the court found that Mr. Ballerstein
did not have prior written or actual notice that a claim was being asserted and therefore the

3 Plaintiffs’ counsel first made this argument in Ms oral presentation to the court at the outset of the February 19th
hearing. The court indicated that he could address Ms point regarding the correct interpretation of § 7552 in his
written closing argument and he has done so.
* The court is aware that there is also an argument to be made that Defendant Paul Ballerstein acted negligently in
the sense that there was some basis for him to doubt the location of his boundary lines. He acknowledged as much in
Ms opening statement during the first phase of tMs trial. It is also why he hired Mr. Genish. The Law Court has
indicated that “P]t is sufficient that the alleged trespasser knew about the existence of a dispute for an action in
trespass to lie.” Dupuis v Soucv. 2011 ME 2, H24,11 A.3d 318,324. Because the concepts of “negligence” or
“without fault” are stated in the alternative in the statute, either suffices to support a finding of liability.
/

(BC^ .

#

^

Haffords were not entitled to an award for professional services pursuant to 14 MRS § 7552(5).
Plaintiffs’ counsel has argued that providing written notice of a claim before it arises and a
property owner becomes aware of it is a factual impossibility.5 This is true enough in this case.
Plaintiffs’ counsel argues that the service of the complaint on September 18,2018
provided the Ballersteins with written notice and actual knowledge of the disputed boundaries
and the claims being made against them. Plaintiff Haffords argue that they are therefore entitled
to an award for professional services, both attorney’s fees and surveyor’s fees incurred after that
date. The court now finds that this is a reasonable interpretation of the statutory requirement and
it is unopposed. The court adopts Plaintiff Haffords’ argument in this regard.
Accordingly, the court amends its Decision Re: Declaratory Judgments and Questions of
Liability dated January 29,2020 as set forth herein to reflect that the Defendant Paul Ballerstein
did violate 14 MRS § 7552(2) and that he did have sufficient prior written notice or actual
knowledge of the Haffords’ claims to expose him to liability for professional services pursuant to
14 MRS §7552(5).
DAMAGES
The counts requiring a hearing on damages were Count 5 of the Plaintiff Penelope
McHatten’s claim for statutory trespass pursuant to 14 MRS § 7551-B and Count 6 of the
Plaintiff Haffords’ claim for statutory trespass pursuant to 14 MRS § 7552.
1. McHatten’s Claims

5 On review of 14 MRS §7552 as a whole, it appears to this court that the legislature designed a statutory scheme
intended to address timber trespasses that might occur during commercial logging operations rather than trespasses
that might occur between residential neighbors. If that is so, then the provisions of 17 MRS §2511 become
implicated when more than five acres are involved. When such a cutting is planned, timber harvesters are required to
give notice prior to undertaking the harvest They also customarily flag or blaze the boundaries of intended harvest
lots. In a commercial circumstance it is therefore far more likely that disputed boundaries would be identified and
appropriate action taken before significant expense was incurred. Notwithstanding that this is not such a commercial
case, the court is aware of no prohibition of a residential property owner prosecuting a claim under this statute.

\

3

m

It is the court’s judgment that the Defendant Paul Ballerstein became liable to McHatten
pursuant to 14 .MRS § 7551-B when he went on to property the court has now determined
belonged to McHatten and cut down her chain link fence and damaged its concrete footer beyond
repair*. The court accepts the testimony of Matthew Cote7 that a reasonable measure of this
damages would be $3,825.60, inclusive of the cost associated with the removal of the damaged
concrete footer. This estimate is less than the estimate for a cedar privacy fence that he provided
as an alternative and because it involves a chain link fence rather than cedar panels and posts it
most closely approximates McHatten’s damages as a result of Mr. Ballerstein’s actions.
The Plaintiff McHatten argues that she is entitled to a doubling of her damages for the
fence and footer. The court does not conclude that McHatten is entitled to “2 times” her actual
damages pursuant to 14 MRS §7551-B(2). Notwithstanding the court’s interpretation of the

^

concept of “intent” with regard to its liability conclusion under 14 MRS § 7551-B, it would be
this court’s view that this is another example of how certain words can have different meanings
that are dependent on the specific questions and circumstances at hand. In this court’ s view, the
best interpretation of “intentionally” within 7551-B is one that is more consistent with the
concepts of “intentionally or knowingly” within 14 MRS § 7552. The doubling or tripling of
damages is a penal concept in this court’s view and allows the multiplying of damages when

6 Although the court has generally referred to the Defendants as “the Ballersteins” in its preliminary decision, the
evidence remains unclear to the court whether the Defendant Goldie Ballerstein was a joint tortfeasor in the actions
that violated the statutes. Accordingly, the judgments for damages herein are awarded against the Defendant Paul
Ballerstein and not against the Defendant Goldie Ballerstein. Because both Defendants participated as unsuccessful
contestants of the boundary issues, the professional sendee awards are made against both Defendants jointly and
severally. Costs and expert witness fees are awarded by statute and rule to the prevailing parties against the non­
prevailing parties. Because the court finds each Plaintiff to be a prevailing party on the core issue of the litigation,
i.e. the location of the boundary lines and each Defendant to be a non-prevailing part}', those costs are also assessed
against the Defendants jointly and severally.
7 Mr. Cote is the owner and operator of a local fence sale and installation business and has approximately 16 years
of experience in the field. The court found that he was a competent expert witness to address the issues associated
with the replacement of McHatten’s fence. The court also accepts his testimony that a concrete footer would be a
more secure means of stabilizing the fence because of the large number of trees and shrubs with root systems in the
vicinity that would likely complicate the driving of metal posts into the ground.

l\SC?) *

there is some deliberate fault or actual subjective awareness of improper conduct that is
associated with a defendant’s actions. In interpreting 14 MRS 7552, the Law Court has indicated
that conduct is “willful” if it displays utter and complete indifference to and disregard for rights
of others and is “knowing” if done with subjective awareness that [an act is] improperly taking
place on another’ s land. Walsh v Johnston, 608 A,2d 776,779 (Me. 1992). In this case, although
the court has found that the Defendant Paul Ballerstein’s actions were civilly wrong, it does not
find that they were done with “utter and complete indifference" to the Plaintiffs’ rights.
Accordingly, the court does not find a damage multiplier to be appropriate in these
circumstances. The court sets McHatten’s actual damages for the destruction of the chain link
fence to be $3,825.60. As per 14 MRS § 7551-B((3)(C), McHatten is also entitled to her costs as
well as both pre-trial and post-trial interest8.
The court finds that McHatten is also entitled to reasonable attorney’s fees pursuant to 14
MRS 7551-B(3)(C). The court accepts McHatten’s testimony that she and the Haffords had
agreed to split evenly the attorney’s fees incurred in the prosecution of this action. The court
finds the total fees incurred through December 5,2019 in the amount of $18,364.23, plus
additional fees through February 17,2020 in the amount of $1,290.00 to be reasonable. The
court accepts Attorney Rossignol’s representation, also supported by affidavit, that he would
incur an additional $1,200.00 in fees associated with preparation for and attendance at the
hearing on damages.9 These fees total $20,854.23 and half of these would be $10,427.11.
*

Although the court has found for the Defendants on Plaintiff McHatten’s Counts 8 and 9, those
claims were a very minor part of the litigation, McHatten is clearly the prevailing party on the

'J
tj.

!
;;

1

8 See 14 MRS §1502-B; 1502-C and 14 MRS § 1602-B; 1602-C
rj See Plaintiffs’ Exk 1. Upon review of this exhibit the court noted that, the jurat was somewhat unconventional and
because notary Cassandra Marie Inman was present at the hearing, suggested that she re-administer the oath to
reflect tliat the affidavit was presented “under oath.” Her liandwritten note on the exhibit reflects that she did this.

:i

(B(3) 5
i

\ *

core issue of the litigation to which almost all of counsel’s attorney time was devoted. The court

l?

declines to discount the award of counsel fees. McHatten is awarded counsel fees in the amount
of $10,427.12.

2. Haffords’ Claims
The court has found that the Defendant Paul Ballerstein violated 14 MRS §7552(2) and
therefore is liable to the Plaintiff Haffords for statutory damages and professional services.
■

Plaintiff Haffords recognize that 14 MRS §7552(3) does not provide any measure of damages for
!

liability for cutting down, destroying, damaging or carrying away “property of any kind from
land not the person’s own.” They argue that the court should resort to regular practices for
determining damages and award actual damages at common law for the cost of replacing the lost
privacy buffer that the spruce tree branches provided. However, the Law Court has stated,

1

“the plain language of 14 MRS § 7552 indicates the Legislature’s intention to occupy the
field entirely... Therefore, the statute replaces the common law with respect to damage to
trees from trespass.” Fuschetti v. Murray. 2006 ME 100, % 12,903 A2d 848, 852.
Therefore, by relying on statutory trespass, the Haffords are limited to damages set forth
within the statute10. There is no record evidence of “the value of the lost products themselves” or
the “diminution in value of the real estate as a whole.” (See 14 MRS § 7552(3)) Accordingly, the
only damages that the court may award is the sum of $250. These damages are awarded against
the Defendant Paul Ballerstein.

if

The court has reconsidered its preliminary conclusions regarding awards for professional
services including both surveyor’s fees and attorney’s fees. Because the Haffords did establish a

10 Both McHatten and the Haffords abandoned their claims for common law trespass. Fuschetti also makes clear that
a successful litigant may not have both common law trespass damages and statutory trespass damages. They may
have only one or the other. Jd.%13 There can be no award for professional sendees associated with a claim for
common law trespass.

(M «
i

?•

£
J?
V

their boundary claim and their cl dm for a violation of 14 MRS §7552(2) they are the prevailing
parties and are entitled to an award for professional services. The date on which the Ballersteins
had this notice and/or knowledge was September 18, 2018. They are therefore entitled to an
award for their one-half share of Mr. Roix’s professional fees of $348.75 incurred after that date
and to an award for their one-half share of Plaintiffs’ counsel fees of $8,062.13n incurred after
that date. The court declines to discount the award of attorney’s fees for the same reasons it has
not discounted McHatten’s award. The Haffords are also entitle to their costs and pre-judgment
interest and post-judgment interest as provided by rule and statute.
THE 14 MRS § 2401 JUDGMENT
Pursuant to the provisions of 14 MRS § 2401, the court has directed Plaintiffs’ counsel to
prepare a Judgment reflecting the resolution of the boundary dispute involved in this litigation.

1

He has done so and upon review, the court finds it to be a satisfactory judgment sufficient for
recording in the Southern Aroostook Registry of deeds upon the conclusion of all proceedings
related to this litigation.

The supplemental entries pertaining to the second phase of this litigation shall be:
1. Judgment for damages in the amount of $3,825.60 is awarded to the Plaintiff McHatten
against the Defendant Paul Ballerstein.

sis.

f

2. The Plaintiff McHatten is awarded $10,427.12 in attorney’s fees jointly and severally
against the Defendants Paul Ballerstein and Goldie Ballerstein.
3. Judgment for damages in the amount of $250 is awarded to the Plaintiffs Hafford
against the Defendant Paul Ballerstein.
4. The Plaintiffs Hafford are awarded $8,062.13 in attorney’s fees jointly and severally

11 Counsel included the court filing fees and service costs in his calculation of attorney’s fees. The court will address
filing fees and service costs as well as expert witness fees for attendance at court upon receipt of Counsel’s Bill of
Costs,

.*?

i

against the Defendants Paul Ballerstein and Goldie Ballerstein. The Plaintiffs Hafford
are awarded $348.75 for professional surveyor’s fees jointly and severally against the
Defendant Paul Ballerstein and Goldie Ballerstein.

w

5. Court costs and expert witness fees shall be considered separately upon the
presentation of Plaintiffs’ Bill of Costs.
6. The Clerk shall assess prejudgment interest on all damage awards at the rate of%Z3_%
and post judgment interest at the rate of H, 53%.
7. The court has signed the 14 MRS § 2401 Judgment and it may be recorded upon the
finalization of all matters related to this litigation.
Date:

E. Allen Hunter
Justice, Superior Court (Active Retired)

ENTERED ON THE DOCKET 3js'J^dXo

5

t

<
;
!

(BO)
,
v.

MAINE SUPREME JUDICIAL COURT
Sitting as the Law Court

Docket No. Aro-20-97
Decision No. Mem 20-96

Penelope McHatten et al.
ORDER DENYING MOTION FOR
RECONSIDERATION

v.
Paul F. Ballerstein et al.

Paul Ballerstein and Goldie Ballerstein have filed a motion for
reconsideration of the Court's decision dated November 3, 2020. The motion
has been reviewed by the panel that decided the original appeal.
The motion for reconsideration is DENIED.
Dated: December 3, 2020

For the Court,

Matthew Pollack
Clerk of the Law Court
Pursuant to M.R. App. P. 12A(b){4)

/

U>1

5- ARGUMENT
a) THE BOUNDARIES ARE BOTH WHAT AND WHERE THE
BALLERSTEINS’ SENIOR DEED CLEARLY AND
UNAMBIGUOUSLY STATES
A. Standard of Review
The final determination of the boundaries in this case rests entirely upon the

i

written deeds of conveyance. And “the law is well established that the
determination of the boundaries of property as ascertained from a deed is a
question of law.” Wallingford v. Kennedy. 2000 ME 112, If 15,753 A.2d 493, 497.

1

And also “we review questions of law de novo*. Graves v. S.E. Downey
Registered Land Surveyor. P.A., 2005 ME 116, ^f 9, 885 A.2d 779, 781. Therefore,
since the determination of the boundaries is a question of law, its standard of
review is de novo.
The most fundamental aspect of using the controlling deed to determine the
boundaries is to interpret the deed’s meaning from its specific terms. “The
standard of review is de novo as to the interpretation of a deed.” Matteson v.
Batchelder, 2011 ME 134,1f 12,32 A.3d 1059,1062. Therefore, the Law Court
will interpret the meaning of the controlling deed for itself, de novo.
And regardless of any other opinion or preference, the unambiguous
qualities of the Ballersteins’ deed are entirely for the Law Court to determine.
“ Whether the deed involved here contains an ambiguity is a question of law that

r

i

(D-l

14

I

I]

we review de novo. Laux v. Harrington, 2012 ME 18,^[ 11,38 A.3d 318,323.

I

Therefore, the clear and unambiguous nature of the controlling deed is for the Law
Court to consider for itself, from the beginning, de novo:
No question of fact wil l present itself in the appeal of the controlling

i

determination of this case. The entire dispute rests upon what the boundaries are.
And “In boundary disputes, what the boundaries are is a question of law.” Rhoda v,
Fitzpatrick, 655 A.2d 357,359 (Me. 1995).

1

There is already consensus among surveyors regarding where the boundaries
are in the field Once the controlling deed is actually allowed to control. In this way,
the controlling determination in this case hinges entirely upon de novo, de novo, de
novo.

8

B. The Ballersteins’ Senior Deed Both Defines What and Describes Where
The Boundaries Are
i) The Ballersteins' senior deed controls
The senior deed, from the conveyance first in time, controls and defines the
boundaries. Just as in the case where “the Tremblay deed is controlling because
the Tremblay conveyance was first in time.” Tremblay v. DiCicco. 628 A.2d 141,

i

143 (Me. 1993). And it is undisputed that the Ballersteins have the senior deed,
from the conveyance first in time. Therefore, the Ballersteins’ senior conveyance
conveyed the entire parcel their deed describes, and the Ballersteins’ senior deed

I
I
I
I
I
I
I
I
I
I
I
I
I
I

notice

j*

37

And the appellees even acknowledged that, in our case, providing the

required notice was “a factual impossibility”.38
But the factual impossibility of meeting the conditions set by the statute did
not deter the appellees from asking for more, nor did it deter the trial court from
awarding it to them. The court, essentially, acknowledged that the statutory
requirements had not been met, but then simply waived the statutory requirements.
The trial court explained by stating that the appellees’ argument was “true enough
in this case”, before awarding the appellees even more damages.39
When in the course of human events, it becomes necessary to claim a trial
court’s judicial prejudice, a total respect for the Law Court’s opinions requires that
the Ballersteins should fully declare the causes which impel them to assert so.
When Roix’s false sworn statements were being questioned at trial, the trial
court interrupted to make excuses for all the appellees’ false sworn statements. 40
When Rossignol’s demonstrably false statements were exposed within the
appellees’ Closing Argument, the trial court completely ignored them.41
When the appellees’ (and Roix’s) rampant falsities and false sworn statements
were exposed, the trial court found the appellees’ false witnesses entirely credible. 42

I

I

37 Appendix p.51, bottom paragraph
n Appendix p.52, top paragraph
y> Appendix p.52, top paragraph
40 Tr.Dl .p.237,1 1-19
41 Rossignol’s false statements were explained in Defendants’ Closing Argument, p.8
4* Appendix p. 17, 37, where the court accepted McHatten’s account over the Ballersteins’, and p.41,
where the court accepted all of the appellees’ versions of disputed events

(P-1
\ t— ~L

14

I

I *

Despite die Hoyt Plan of 1970 labeling three (3) pins and one (1) pipe43, the
trial court found it showed “there were iron pins at all four comers”.4'1 But Hoyt
differentiated between “pipe” and “pin”, and contradicted the position of “item
126” which has been used to define die boundaries, pending appeal.48
When McHatten interrupted die appellants* family while they were working

I

together on their own property, in order to tell them about child labor laws, the

I

trial court found McHatten’s interruption to be a “neighborly pleasantry”.46

I
I

As if to add insult to injury, and tarnish the appellants* good name, the trial
court added that it was they who had “distorted perceptions** and unusual
sensitivities to “perceived affronts”.47

l

When the appellees were faced with die “factual impossibility” of meeting

1

statutory requirements, the trial court waived those statutory requirements, such
that more damages were awarded to the appellees 48
When presented with a clear explanation of controlling caselaw,49 the trial

1

court ignored it, and decided such that the appellants’ legitimate property rights
were stripped away.

1
43 Appendix, p.86
44 Appendix, p.2i, first paragraph
45 Appendix, p.47,48
40 Appendix, p.38, topmost paragraph
47 Appendix, p.41
4K Appendix, p.52 topmost paragraph
w As explained in Defendants’ Closing Argument, p.l-6 (found in Appendix, p.lOO-IQS)

(E-JL 15

I-'
1

It is the prerogative of the trial court to determine credibility and find facts.
But it is not the prerogative of the trial court to play favorites and make excuses for

I

false sworn statements, nor to include a known false statement within its Decision,

1

nor to override statutory requirements, nor to ignore controlling caselaw, nor to
purposefully insult the parties attempting to defend themselves in good faith.
h) Legal Impossibilities: Adverse Possession and Acquiescence

1
i

The appellees’ assert that the Law Court need not now address the appellees’
entirely hollow claims of, and untenable positions regarding, adverse possession
and acquiescence. But the appellants’ first Brief clarifies why, at some point, the
Law Court will need to do exactly that.
The appellees completely failed to refute the appellants’ clear reasoning of

I
1
I

the issues and logical analysis of controlling caselaw. And in the name of justice,
the time to consider the appellants’ reasoning and logic, all fully and thoroughly
explained in the appellants’ Brief, is now.

1
l
1
I
E-l

I©

